                  U.S. SMALL BUSINESS ADMINISTRATION

                      OFFICE OF INSPECTOR GENERAL

                           Washington, DC 20416



                                                                          AUDIT REPORT
                                                                    ISSUE DATE:
                                                                    JANUARY 11, 2000
                                                                    REPORT NUMBER: 0-03

TO:            Jane Butler, Associate Administrator for Financial Assistance
               Robert Baskin, Associate Administrator for Field Operations

FROM:          Robert G. Seabrooks, Assistant Inspector General for Auditing

SUBJECT:       Summary Audit of 7(a) Loan Processing

       Attached is a copy of the subject audit report. The report contains one finding and three
recommendations addressed to your offices. As a result of discussions with senior Small Business
Administration (SBA) management officials, we made changes to the draft report including
dropping two loans from the statistical projections. Corrective actions addressing the
recommendations are in process or are planned for the near future.

       The finding included in this report is the conclusion of the Office of Inspector General
Auditing Division based upon the auditors testing of the auditee’s operations. The finding and
recommendations are subject to review and implementation of corrective action by your offices in
accordance with existing Agency procedures for audit follow-up and resolution.

        Please provide your management response to the recommendations within 30 days from
the date of this report on the attached SBA Forms 1824, Recommendation and Action Sheet.

       Should you or your staff have any questions or want to discuss the issues further, please
contact Garry Duncan, Director, Credit Programs Group at 202-205-7732.

Attachment
                       SUMMARY AUDIT OF 7(a) LOAN PROCESSING


                                  AUDIT REPORT NUMBER 0-03


                                            January 11, 2000





The finding in this report is the conclusion of the OIG’s Auditing Division based on testing of the auditee’s
operations. The finding and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
proprietary information subject to the provisions of 18 USC 1905 and must not be released to the public or
another agency without permission of the Office of Inspector General.
                                                SUMMARY AUDIT OF
                                               7(a) LOAN PROCESSING

                                                      Table of Contents

                                                                                                                       Page

SUMMARY.................................................................................................................... i

INTRODUCTION

          A. Background ................................................................................................... 1


          B. Objectives and Scope ...................................................................................... 1



RESULTS OF AUDIT

Finding and Recommendations

          7(a) Loans were not always Processed, Disbursed, and Used in
          Accordance with SBA Requirements ................................................................... 3

APPENDICIES

          A- Statistical Sampling Techniques and Results

          B- Comparison of 7(a) and LowDoc Audit Results

          C- Loans that were Inappropriately Approved and Disbursed

          D- Loans that Need Corrective Action

          E- Number of Non-Compliance by Procedure and District Office

          F- Management Response

          G- Audit Report Distribution

                                             Summary

        The Associate Administrator for Financial Assistance requested this audit to determine the
level of compliance with SBA’s requirements for loans made under the general 7(a) loan program
and to compare the results to previously conducted similar audits of the Low Documentation
Loan program (LowDoc), a sub-program of 7(a). From a universe of 32,462 loans valued at
$10.3 billion, we selected a statistical sample of 240 loans valued at $74 million approved
between March 1, 1996, and June 30, 1997. The objective of the audit was to determine whether
loans were processed, disbursed, and used in accordance with SBA requirements.
       We concluded that 7(a) loans were not always processed, disbursed and used in
accordance with SBA requirements, and that the rate of non-compliance was about half that of
the two LowDoc audits that preceded it. Based on a statistical projection of the sample results,
we estimate that 3,505 loans, valued at $405 million, have a deficiency that resulted from non­
compliance with SBA requirements.
        The auditors evaluated lender compliance with 22 required procedures considered material
to the loan approval process. Non-compliances were evaluated to determine whether they
resulted in an actual deficiency that impacted the guarantee or required other corrective action to
protect the Government’s interest. Twenty-six loans (11 percent) valued at $7 million had
deficiencies in this category. Another 92 loans (38 percent) had non-compliances in which the
impact could not be determined during the audit, or had non-compliances that did not result in
deficiencies.
       SBA's oversight of lenders needs improvement. We noted that:

       •	 Four out of five non-compliances occurred when SBA had limited or no oversight of
          the lender’s processing and disbursing actions.
       •	 SBA did not make lender oversight reviews, as required.
       •	 A baseline goal had not been developed to measure and evaluate the adequacy of
          lender loan processing performance.
       •	 Procedures for tracking guarantee repairs had not been developed by SBA district
          offices.
        During the audit, SBA began to improve lender oversight by conducting Preferred Lender
Program (PLP) Lender Reviews and Small Business Lending Company examinations and
developing a guide for district offices to use for monitoring lenders. SBA also is in the process of
establishing a lender oversight office.
        We recommended that the Associate Administrator for Financial Assistance (AA/FA) set
goals and measures to evaluate lender performance. The AA/FA advised that a lender review
system, established in October 1999, would result in lenders being rated for their compliance with
SBA lending procedures. The AA/FA’s proposal is only partially responsive to the
recommendation since lender goals and measures were not established. The AA/FA agreed to
establish a centralized quality review process over the purchase of loans with material deficiencies.
We also recommended and the Associate Administrator for Field Operations agreed to establish a
procedure to track repairs and report the results to the AA/FA.


                                                  i
                                           Introduction

A. Background

        Section 7(a) of the Small Business Act of 1958, as amended, authorizes SBA to provide
financial assistance to small businesses in the form of government-guaranteed loans. SBA
guarantees loans made by lenders who agree to process loans in accordance with the law and
SBA regulations, policies and procedures. If lenders fail to comply with the terms of the
agreement, depending on the severity of the non-compliance, SBA maybe released from the
guarantee and is not obligated to purchase defaulted loans.

        The trend in recent years is increasing delegation of duties by SBA to lenders. The
Preferred Loan Program (PLP), wherein experienced lenders are authorized to make SBA-
guaranteed loans without prior credit approval by the Agency, as of June 30, 1999, accounted for
about 34 percent of all 7(a) loan approvals and more than half of the dollars. The Low
Documentation Loan Program (LowDoc), introduced in 1993, authorizes loans up to $150,000,
and increases the number of loans that are approved by lenders with limited SBA review. In all,
the Agency estimates that in FY 1999, more than 75 percent of the Agency’s loan volume will
occur in programs with very limited up-front SBA credit reviews.

B. Objectives and Scope

       The audit objective was to determine whether 7(a) general business loans were processed
and proceeds disbursed and used in accordance with SBA requirements.

       The audit covered 7(a) loans approved between March 1, 1996, and June 30, 1997, a
universe of 32,462 loans valued at $10.3 billion. A sample of 240 loans from eight SBA districts
was drawn using the Rowe-Hartley-Cochran method with RATSTATS, statistical sampling
software developed by the Office of Inspector General, U.S. Department of Health and Human
Services (see Appendix A). Based on weights for number and dollar volume of loans processed,
RATSTATS selected eight districts: Atlanta GA, Buffalo NY, Denver CO, Madison WI, Newark
NJ, Kansas City MO, Charlotte NC, and Glendale CA. Thirty loans were randomly selected from
each district for a total sample of 240 loans valued at $74 million.

       Each loan was reviewed for compliance with 22 requirements in the law, SBA regulations,
and the SBA-lender guarantee agreements. When non-compliances were identified, they were
evaluated for impact – i.e., did a deficiency result from the non-compliance?

        Deficiencies were determined to include ineligible loans or partially ineligible loans, and
actual deviations from the loan agreement such as not using proceeds correctly or injecting equity.
For statistical sampling projections, we related the deficiency with the inappropriate portion of the
loan. In terms of ineligible loans, the total guarantee was deemed inappropriately issued. In cases
where only a part of the loan was deficient, the corresponding amount of the guarantee was
deemed inappropriately issued. Audits of the LowDoc program in 1996 and 1997


                                                 1

showed that loans were not always processed, disbursed, and used in accordance with SBA
policies and procedures. While the methodologies between those audits and this audit differed,
we have included a comparison of both in Appendix B.

       The auditors reviewed documentation and conducted interviews at offices of lenders,
borrowers, and SBA. Fieldwork was performed from September 1997 through March 1999.
The audit was conducted in accordance with Government Auditing Standards.




                                               2

                                       RESULTS OF AUDIT

        Eleven percent of the loans reviewed had a deficiency due to non-compliance with SBA’s
requirements. While another 92 loans or 38 percent of the loans had at least one non-compliance
with SBA procedures, there was no correlated impact on the loan. The number of loans
processed without SBA’s involvement had increased over time but SBA's reviews of lenders were
not being performed as required. In addition, SBA had not developed base line standards and
systemic information gathering to measure lender loan processing performance.

        The rate of non-compliance found in the 7(a) audit was about half that of the two
LowDoc audits that preceded it. Although compliance was better in the 7(a) audit, the rate of
non-compliance was still significant and the risk of loss higher due to much larger average loan
values for 7(a) loans. The value of the 7(a) loans audited averaged $309,170 compared to
$61,700 and $53,522 for the LowDoc audits.

Finding – 7(a) Loans not Always Processed, Disbursed, and Used in Accordance with SBA
          Requirements

        SBA requirements for the 7(a) loan program were not always followed. Additional SBA
lender oversight is needed to improve the level of compliance with established procedures.

a.       Loans should not have been approved or disbursed

        Non-compliances resulted in 12 loans totaling $2.7 million being inappropriately approved
or disbursed (see Appendix C). SBA was not aware of non-compliances for 8 of the 12 loans
because these processes are not normally reviewed by SBA and were not reported by the lenders.
These deficiencies were violations of Title 13, Code of Federal Regulations (CFR), Part 120 or
SBA standard operating procedures. Based on a statistical projection of the sample results, we
estimate the 7(a) portfolio included 1,724 loans valued at $266 million that did not meet the
requirement for a SBA guarantee. The prohibited conditions included:

     •   Ineligible borrower
     •   Ineligible uses of loan proceeds
     •   Unacceptable character
     •   Undisclosed conflict of interest
     •   Lack of creditworthiness
     •   Lack of repayment ability

       As of August 4, 1999, 2 of the 12 loans were performing, 2 were paid-in-full, 5 were
canceled, and 3 were non-performing or charged-off.




                                                 3

b.     Loans that had other deficiencies

         Non-compliances for 14 loans, valued at $4.3 million, resulted in other deficiencies such as
lack of full equity injections, ineligible loan purpose, use of proceeds, and unauthorized
disbursements (see Appendix D). Non-compliances included failure to (i) ensure that equity
injections were made as required by the loan agreement; (ii) disburse loan proceeds as required;
(iii) ensure that the use of loan proceeds complied with the loan agreement; or (iv) disclose to
SBA adverse changes in the borrower’s condition. Based on a statistical projection of the sample
results, we estimate that the universe of 32,462 loans included 1,781 loans valued at $139 million
which had deficiencies that could impact the guarantee if a purchase request is received from the
lender.

       As of August 4, 1999, 7 of the 14 loans were current, 1 was paid-in-full, and 6 were non-
performing or charged-off.

c.	    Loans with non-compliances where deficiencies may exist but could not be
       determined

        Eight loans had non-compliances with SBA policy and the loan agreement that were
unresolved. For seven loans borrowers or sellers refused to assist in obtaining IRS verification of
financial data. For an eighth loan, the borrower would not provide evidence of a required equity
injection.

      As of August 4, 1999, seven of the eight loans were performing or paid-in-full, and one
was non-performing.

d.	    Loans with non-compliances with no dollar impact

         At least one non-compliance that did not result in a deficiency was found in 84 other loans
in the sample. The non-compliances involved lack of: equity injection verifications, use of
proceed verifications, IRS verifications, closing forms, or credit reports. However, when we
performed the verification as a part of the audit, no adverse conditions were found. Based on
statistical projection of the sample results, we estimate that the loan portfolio included 11,563
loans, totaling $3.4 billion in this category.

       As of August 4, 1999, 71 of these loans were performing or paid-in-full, 8 were canceled,
1 was not disbursed, and 4 were non-performing.

Improvements needed in SBA oversight

       SBA has developed various 7 (a) loan sub programs that are designed to have less direct
involvement by SBA and therefore need more oversight to ensure compliance. We found that
SBA’s oversight program did not function as required for the reasons shown below.




                                                 4

       SBA was not aware of a majority of the non-compliances

        SBA is increasingly shifting responsibility for loan underwriting to lenders. Four of every
five non-compliances in our sample occurred when SBA had limited or no oversight of the
lender’s processing and disbursing actions. Of the 170 non-compliances identified, only 32 were
detectable by SBA under the current approval process. Of the other 138 non-compliances, 130
involved procedures that are not reviewed by SBA in loan approval and 8 were approved directly
by lenders as PLP loans. The primary examples of processing and disbursing actions not reviewed
by SBA were verifications of equity injections, IRS tax returns, and use of loan proceeds.

        The three leading non-compliances (see Appendix E) were (1) untimely or missing IRS
verification (46 instances), (2) lack of credit reports or improper determinations of
character/creditworthiness (27), and (3) equity injections not verified or not made (23). These
accounted for 56 percent of the 170 non-compliances identified. The first and third are
procedures which traditionally have not been reviewed by SBA during loan processing.

       SBA needs to monitor lender actions to strengthen controls over purchase decisions

         When a loan defaults and the lender requests purchase of the SBA guarantee, SBA may be
released from liability if the lender fails to materially comply with SBA regulations and the loan
agreement. We found, however, that SBA purchase reviews rarely resulted in denials of liability –
in the past 5 years, only 9 out of 1,918 purchase requests (0.5 percent) were denied in the eight
districts covered by our audit. Three districts had no denials of liability. In contrast, our audit
showed that 5 percent of loans should not have been made and another 6 percent needed
corrective action or repair of the guarantee. An official in one district office stated that it was the
policy of the Agency to cure non-compliances by voluntary adjustment (repair) of the guarantee
by lenders. The districts did not track repairs; as a result, we could not evaluate the effectiveness
of this activity.

        Several individual OIG 7(a) loan audits resulted in recommendations to either repair or
withdraw loan guarantees because of non-compliances with SBA requirements. We were told
that such recommendations could not be implemented because of the SBA long-standing policy of
not denying liability until a lender purchase request was received.

        Lender oversight was not accomplished during the timeframes, as required. According to
guidelines, district offices should have visited each lender annually unless a waiver was justified.
Out of 147 lenders in our sample, only 18 (12 percent) received field visits by district personnel
during fiscal year 1996, and 26 (18 percent) were visited during 1997. Districts said the required
visits were not made because of personnel shortages, travel budget restrictions, or low volume of
loans at the lender.




                                                  5

      In June 1999, SBA announced that it was creating a new Office of Lender Oversight to
improve monitoring of lenders. The responsibilities of the Office will include:

          •	 promulgating regulations, policies, and procedures,
          •	 coordinating preferred lender, Small Business Lending Company, and district office
             reviews with respect to lender oversight, and
          •	 evaluating changes to existing loan programs to assess their risk potential and required
             oversight.

       The creation of this office should lead to improvements in SBA’s oversight of lenders
when it’s fully operational, and therefore, no recommendation will be made to address the
aforementioned conditions.

Baseline goals for lender loan processing

        The Government Performance and Results Act of 1993 requires establishment of
performance goals to define the level of performance to be achieved by a program activity. Such
indicators can be used to measure or assess the efficiency of the program activity and make
necessary changes if improvements are not demonstrated. SBA has no process to measure 7(a)
loan processing performance. Establishment of measures, with appropriate lender monitoring and
information gathering and analysis, will place emphasis on quality loan making.

Recommendations

       We recommend that the Associate Administrator for Financial Assistance take the
following action:

          1A.	 Establish goals and measures for lender loan processing errors and periodically
               compare performance to the goals.

          1B.	   Centralize the purchase process for all loans identified during any review as having
                 material deficiencies.

          We recommend that the Associate Administrator for Field Operations take the following
action:

          1C.	   Establish a procedure to record repairs and report those results to the Office of
                 Capital Access and the Office of Financial Assistance.




Management Comments

                                                   6

      The Associate Administrator for Financial Assistance stated that she partially agreed with
recommendations 1A and 1B but will not implement them exactly as presented.

       •	 The lender review system, which became effective October 1, 1999, established a
          scoring mechanism based on the results of loan reviews by SBA personnel for each
          lender. This system will result in lenders being rated as substantially in compliance,
          generally in compliance, minimally in compliance, or in non-compliance.
       •	 An October 26, 1999, meeting attended by the Deputy Administrator, the Chief
          Operating Officer, the AA/FA, AA/FO, and General Counsel resulted in an alternate
          proposal to the OIG centralization recommendation. Under the proposal, the Offices
          of Field Operations and General Counsel will review a sample of 10 percent of all loan
          purchases each year, including the loans identified as problematic by the OIG or SBA
          lender reviews. A summary of this proposal has been drafted and is currently in the
          SBA clearance process.

       The Office of Field Operations agreed with recommendation 1C and stated that a new
system to track and provide reports on loan repairs is estimated to be implemented in the
beginning of FY 2001.

       The Office of Financial Assistance agreed that 11 of the 12 sample loans shown in
Appendix C should not have been approved and disbursed. For one loan [FOIA EX. 4] they
disagreed and provided the following rationale.
       “The purpose of the loan was to purchase an existing business. The seller used sale
       proceeds to pay a debt of the business to the participating lender that financed the
       purchase by a PLP loan. The OIG considers this an ineligible reduction of the lender’s
       exposure under 13 CFR Section 120.140(j)(3). OFA does not concur with this.
       OFA believes this rule is applicable only to a reduction of the lender’s exposure with a
       borrower obtaining a SBA guaranteed loan, not the debts of a third party. 13 CFR
       section 120.452(a)(2) supports this position. It says, in part, that a lender may not make
       a PLP business loan that reduces its existing credit exposure for any Borrower. The
       lender did not violate this rule.”

Evaluation of Management’s Comments

      The AA/FA’s proposal for recommendation 1A is only partially responsive to our
recommendation.

       •	 The proposed process for recommendation 1A will provide some measure of
          individual lender performance but does not set a baseline goal for lenders nor compare
          lender performance, individually or collectively, to a goal.
.
       •   For recommendation 1B, the planned review of 10 percent of all loans purchased,

                                                7

   including all loans with possible problems, will be an improvement in the control over
   the guarantee purchase process. This alternative may be sufficient if a quality review
   process is implemented to: (i) recover funds inappropriately paid for loan purchases,
   and (ii) ensure appropriate actions are taken against district offices making bad
   purchase decisions. We will evaluate the effectiveness of this control in the future.
•	 The proposed actions are responsive to recommendation 1C.

•	 The OIG disagrees with management’s position concerning loan number [FOIA EX.
   4]. The CFR cite and management’s interpretation are not supportive or applicable to
   the circumstances of this loan.

   Proceeds were used to pay off a loan owed by the seller of the business to the lender
   making the SBA loan. SBA was not informed of this fact. Section 120.140(j)(3) of 13
   CFR, which applies to all lenders, states that a participant may not fail to disclose to
   the SBA whether the loan will repay or refinance a debt due a Participantor an
   Associate of a Participant.

   OFA management appears to be inappropriately using a narrowly focused
   prohibition to support their disagreement. Section 120.452(a)(2) of 13 CFR provides
   an exception to 13 CFR 120.140 (j)(3) only when the lender has an interim non-real
   estate loan to a borrower which is refinanced by a PLP loan within 90 days after the
   issuance of the interim loan. This provision—13 CFR 120.452 (a)(2) does not
   address any other situation and therefore, does not provide any other exception to the
   120.140(j)(3) provision. Discussions with legal counsel support our conclusion.




                                        8

                                                                                                          Appendix A
                              Statistical Sampling Techniques and Results

       We reviewed data from a statistical sample of 7(a) loans approved during the period
March 1, 1996 to June 30, 1997, to develop our estimates of population values. The statistical
sample was a multi-stage sample based on the following data.

 UNIVERSE                                      32,462 loans valued at $10.3 billion
   st                                            240 loans valued at $74 million
 1 Stage
 2nd Stage        Atlanta    Buffalo     Charlotte   Denver      Glendale     Kansas City      Madison      Newark
                  30 loans   30 loans    30 loans    30 loans    30 loans     30 loans         30 loans     30 loans


        The estimates of population values have measurable precision or sampling errors. The
precision is a measure of the expected difference between the values found in the sample and the
values of the same characteristic that would have been found if a 100 percent review had been
made using the same techniques. Sampling precision is indicated by ranges or confidence
intervals that have upper and lower limits and a certain level of confidence. Calculating at a 90
percent confidence level means the chances are 9 out of 10 that if we reviewed all of the 7(a)
loans in the populations, the resulting values would be between the lower and upper limits, with
the population mid-point estimates being the most likely number of non-compliances.

        The following population estimates and lower and upper limits were calculated using the
Department of Health and Human Services OIG’s RATSTATS program at a 90 percent
confidence level. We used the population mid-point estimates as the statistical projections for this
report. These projections are applicable solely to the 7(a) loans processed during the period of
our review.

   SAMPLE                                       PROJECTIONS TO POPULATION
   RESULTS
                                         Dollar Amount                                  Number of Loans
                          Point           Lower Limit           Upper Limit       Point    Lower       Upper
                         Estimate                                                Estimate
26 loans with dollar     $404,684,221        $273,686,826         $535,681,616         3,505        2,901          4,109
impact
12 loans that should     $266,162,243        $148,257,035         $384,067,451         1,724        1,231          2,217
not have been made
14 loans that may        $138,521,978         $49,556,083         $227,487,873         1,781          844          2,718
need adjustment if
purchased by SBA
118 loans with at       $4,570,742,851      $4,042,146,846      $5,099,338,856        16,192       14,092         18,292
least one non­
compliance
8 loans with             $218,666,753         $64,637,064         $372,696,442         1,124          349          1,898
unresolved dollar
impact
84 loans with no        $3,404,361,873       2,526,913,292       4,281,810,455        11,563        8,411         14,715
dollar impact
                                                                                Appendix B

                     Comparison of 7(a) and LowDoc Audit Results



                     ELEMENT                               7(A)    LOWDOC LOWDOC
                                                                     II      I
a —Number of loans                                   240           120           70

b—Number of loans with non-compliances               120           84            55

c—Non-compliances/loans (b‚a)                        50%           70%           77%

d—Number of loans which should not have been made    12            13            7

e—Material Non-compliances/loans                     5%            11%           10%

f—Material non-compliances/dollars                   6%            9%            10%
g—Total non-compliances                              170           171           110
h —Average number of non-compliances to loans with
non-compliances (d‚b)                                1.42          2.04          2.04
Dollar impact – gross loan amount                    $2,735,000    $673,805      $390,000
Gross amount of sampled loans                        $74,010,093   $7,404,024    $3,746,540
                                                                                            Appendix C

                    Loans that were Inappropriately Approved and Disbursed

   LOAN         AUDIT          LOAN       GUARANTE       QUESTIONED
 NUMBER       REPORT #       AMOUNT       E AMOUNT        AMOUNT                      REASON
Entire       8-7-F-019-014   Entire           $30,000         $30,000     Ineligible purpose of loan
column                       column
FOIA EX. 4                   FOIA EX.4
             8-7-F-019-014                    $283,500        $283,500    Conflict of interest
             8-7-F-020-022                    $271,260        $271,260    Ineligible purpose of loan
             8-7-F-021-018                    $166,500        $166,500    Adverse change in financial
                                                                          condition
             8-7-F-021-018                    $450,000        $450,000    Size standard
             8-7-F-021-018                    $251,250        $251,250    Adverse change in financial
                                                                          condition
             8-8-F-002-028                    $120,000        $120,000    Conflict of interest
             8-8-F-002-028                     $20,000         $20,000    Repayment ability, false
                                                                          statement, character
             8-8-F-002-028                     $56,000         $56,000    Ineligible purpose of loan
             9-05                              $80,000         $80,000    Lack of
                                                                          character/creditworthiness
             9-05                             $108,000        $108,000    False statement
             9-04                              $53,250         $53,250    Ineligible purpose of loan

TOTAL                        $2,735,000     $1,889,760       $1,889,760
                                                                                           Appendix D

                                Loans that Need Corrective Action

  LOAN         AUDIT          LOAN       GUARANTEE       QUESTIONED
NUMBER       REPORT #       AMOUNT        AMOUNT          AMOUNT                   DEFICIENCY
Entire      8-7-F-019-014   Entire           $210,000         $10,000     Equity injection not made
column                      column
FOIA EX.4                   FOIA EX.4
            8-7-F-019-014                     $386,250        $100,000    Equity injection not made
            8-7-F-019-014                      $80,000         $67,000    Equity injection not made
            8-7-F-019-014                     $236,250         $17,479    A portion of loan proceeds used
                                                                          to repay ineligible debt
            8-7-F-020-022                     $172,650         $20,000    Equity injection not made
            8-7-F-020-022                     $375,000        $107,715    A portion of loan proceeds used
                                                                          to repay an eligible debt
            8-8-F-003-019                     $157,500         $13,000    Equity injection not made
            8-8-F-002-028                     $151,500         $83,400    Equity injection not made
            9-05                              $749,720        $390,000    A portion of loan proceeds were
                                                                          used to compensate an associate
            9-04                              $264,375        $104,326    A portion of loan proceeds used
                                                                          for an unapproved business
                                                                          purpose
            9-16                               $36,000         $18,995    Equity injection not made
            9-16                               $37,500         $17,830    A portion of loan proceeds used
                                                                          for an unapproved business
                                                                          purpose
            9-16                               $64,320         $23,847    Use of proceeds not verified
            9-16                              $100,500         $29,567    A portion of loan proceeds used
                                                                          for unapproved business
                                                                          purposes
TOTALS                      $4,267,600      $3,021,565       $1,003,159
                                                                                                      Appendix E

                           Number of Non-compliances by Procedure and District Office

               PROCEDURE                             ATL   MAD   BUF   NEW   GLN     DEN     CHA      KC     TOTAL
1) Inadequate evidence of repayment ability                                  1       1                       2
2) No repayment ability calculation documented
3) Lack of character / creditworthiness (including   4     2     2           1       1       9        8      27
lack of credit reports)
4) Conflict of interest                              1                       1                               2
5) Alternative source of funds available
6) Size standard                                     1           1                                           2
7) Ineligible loan purpose or use of proceeds        2     1                 1               2               6
8) Unallowable business type
9) IRS verification not done                         1     2     1     2     4       1       1        5      17
10) IRS verification done after loan disbursement    6     7     4     2     2               1        7      29
11) False/inaccurate information provided                                    1       1                       2
12) 1050 Settlement sheet signed in blank                  1                         3                       4
13) 1050 Settlement statement not prepared                 2                         1       2               5
14) Disbursements not made per loan authorization          1     1                   2                2      6
requirements
15) Joint payee checks not used                            2     3                   1                3      9
16) Use of proceeds not verified                           1     1     2             1       7        2      14
17) Required equity injection not verified or not    4     2     1     4     2       3       2        5      23
made
18) Adverse change not reported to SBA                           3                                           3
19) All available and needed collateral not used                             1                               1
20) Disbursements not per the required time frame    2     1           2     2       1       1               9
21) Required standby agreement not obtained
22) Fees not documented or not allowed                                       2               2        5      9
    Total                                            21    22    17    12    18      16      27       37     170


Individual audit reports issued by district:
ATL – Atlanta, GA #8-7-F-019-014 MAD - Madison, WI #8-7-F-020-022; BUF - Buffalo, NY #8-7-F-021-018; NEW - Newark,
NJ #8-8-F-003-019; GLN - Glendale, CA #8-8-F-002-028; DEN - Denver, CO #9-05; CHA – Charlotte, NC #9-04; KC – Kansas
City, MO, #9-16
                             U,s. SWIU. BU"N~&s APMlNlfrr .... fllm
                                         ........,.."."•. D.C.   ~G41e
                                                                                       Appendix P



              N_l>tr2.1'>9'J
               !'llyn.. K.   F""~

                                                                         f'r f\
                                             M:;~ ' r~
               lD'P«kltO<n<ntl 	                                  \\
               J..,.PaI<grovtBLJtI...
               .......,oateAd/ltln,_
                 for F....,.,.I ......   ,"""C<
~,             oruI S"'MW)' R<p<Kt. 1(oj u.... Prnceoo'"2
               ~"'~-.

n. t:>Jr.c<- oi"F~~ (OFA.> ~ tho i'ollo'o>mg ~ to <be
~ oflhe Offic:e of II>; !nap«"" ~I (010)""& on oI>e DroIt S""""'OY 

""P<'" 011 >(oJ """'~. 

IA. 	   EmblIsIo  I>udIn< goals IDd .......... r... I"""... Iou p,.,,"";ag ... , ......d
        por\odl<dIy ""'p'" perfQrDWO'" to lb. ~."'"

        CWJo.. pmt>olly _ , "".. /no, r«OI"Olrn<n<la""" 00' ",11 not 'mpl"""",,,.umry ..
        ~           We b.h,v< tlml the full.....ns" """"...., woW to.. ",on, cfth.
        ~-
        A.l.ende< !<.<v.... S,;=m ... ""'" _bl"",," ...,th Ihe ''''1'1."",,_ of
        SOP 50 SO 4{B). API""'d.. 30 11ns wosefW:1i'" Octob.,. 1. 1999.

        n., sy..... Iw ..tai>l"h«l • """'"8         """horn""
                                                          bOO«l "" tI>c .......' " provul«l at tI>c
        .... "'" kwt" ......wed. I, c.,.... aIlllSj><Cl> of. loan (, <. pn>e<ssmg........ ,Illgo and
        [iqut&tlon). 1'bl. wjll "",wI III th< I",th bewg sub<toonn,lIy III comphone<. _ I I ) ' in
        """,pl~,     nurumall)' in "ontph..,,,,,,. or """""""Phone •.

        T!>i, sy...... ;, ... lIlI<gr>.l <ornpoOO1l' ofnslo """"'_, tha, O>tabl,oll<.< bcn,IunoIKS
        1hol _ _ ",\he,...,.... _ 	               ",tIt\mmne lite ""ton,,! ...... ~1 ofthe~.

1B. 	   C......w..tbopt<<hau l""<"I.f.. aIll.,.... IdoaIIlI..l~UlV ~ ..                       ho.vIn¥.
        .....rlod doD<Ieo&<Io<.
        0" Augd$1lS. 1999•• 606 ~ Imp_"" of_ .... ""'~ P""'''''' of loan
        Wjl=_ ... "'q............ I>l_;""'oI<>r>r1C<. rFOIAEX 51

        0" 0c10bcr ~.        1\19'1,' ~ ..... bold ""'" tho Oepu~ AdnunOOlnl"""'; cruof
        opera"", Otl)c< Which....- oPo. OOC. 0'1'", """ "'" ~",c.._ .'..=                            "'"
        tl!>l "",""n~ "" 01_ proposaiwu ~;"'..-d. Und... """ proposal. OFO and OGC
        will,,,,",,,, ~ .........o of: Ill'!J. of: call."", pn........... '1"'. ~ lli<~=
        ,dCntofio<! by <JIG or tmwsb I....... ~ or <I1bonvo.., .. poI<oll&ll~ pro/>lornooo for
                                                                                      Appendix I'
        purcha..,. A twnmary oflbil propoW., ;ncludinll.-ecommendltion to the Deputy
        Adminiltratcx I!.I;I be adopIed. bas been.n.Aed and i, Cl.Im:nIly in clc.anncc.

1A.     Edablbb. pro0t4are 10 recGnI rq.1ln IDd report laose resllllJ 10 Ibe om« of
        Capital Ac~ti. or I'taQld .. Aslbtlllce..

        The A&mcy currmtly collecu ICIIM o{ the dat. that il requlR:d to track rcpIlrS. A repair
        actually COYen tIfte~: ( I) PamaJ IdJustmenti to the S8A gLWWIIy. (2) ckniIl of
        liability. and (3) lender releues S8 A ofilS IlW'Illty. Data from the putial adjllStmeDt
        and Iht; denial of liability il eum::ntly in S8 A 's dIobhasc. H~vcr,. program ",ill need
        to be developed to lenerate rqular rcporu. When the Icnda wrilCl S8A and formally
        rclcasc:a the Agency of ill guannty. the lelter;s placed 111 the borrower', file, and the
        Imdermarkl lhc next S8A Form IS02 II p...:1 in full. SS A ',1)'SICm only refiect:5 thai
        !be loan II po;id in fuli llollhu the lender rebsca the AIC"I'Y of itlliabi]ity, At.. mull,
        I dlcek block will be deYelopai for the field office to complete !hat WIll R:flect llw.lhc
        .,.,...,1)'''''''
                        relcascd. ]1 is anticipated IhIt the ~~.,..... chanp and repon
        devcJopmcnIlibould be completed in IpproxlmalCly one month.

        The new Loan Monitorina S,..tcm (lJ.{S), wruch is beinl developed as pari of tile Over
        alll)'llClm modernization of the Agc:ncy, will ru.ord lo.nli on which Il'Cp'oir (M;CI.In and
        will pnmdc OF A with report$. The cstimaJa.t implemenwion dale tS the beJinnut. of
        FY2OO1.

Twelve of the fOW1CCn cue fila li,1ed in Appendix C of the rrporI wen: reviewed.

OFA conc:un _ith .. o f findinp. doCI not COIlIU' WIth 2. and is unabloc to talce I poI;hon on 6 of
the loans. OF A hu 1101 T'CY1CWeCI 2 fila.

Of the 2 filel not reviewed. one wu requested but not rc.::cived by Hcadquarten Ind the other
_ not the c;:om:ct file . The c~t file was requested Ifter OFA "lniti,l response but was not
rc.::cived u of the date of this memonnclum.

OFA will ~nuc to by to obuln these filCi and ""II prvv1decommcnl when they come in from
the fidd and ore reviewed if we do nO! concur""!h the findinll .

Detailed conunentJI on the findings ore all3<;hcd.




                                                     ,


                                               2

                            . U.S. SMALL BUSINESS ADMINISTRATION
                                                                                            AppendixF
                                     WASHINGTON, D.C. 20416




   DATE:         December 8,1999
      TO:        Phyllis Fong
                 Inspecto~e~         .
  FROM:
              e~dL
                    for Financial Assistance

SUBJECI':        Draft Summary Report -7(a) Loan Processing

 The Office of Financial Assistance (OFA) is responding to additional information provided by the
 Office of Inspector General (OIG) on 10 of 14 loans in Appendix C of the Draft Summary Report
 on the 7(a) Loan Processing. OIG classifies the 14 loans in Appendix C as "Loans that should
 not have been made."

 As a result of additional information supplied by OIG pertaining to 10 loans listed in Appendix C,
 OFA has reviewed 13 of the 14 total loans on that list as of this date. Although one loan file was
 not reviewed by OFA, the information supplied by OIG on this loan was sufficient for OFA to
 respond.

 OFA concurs with the findings on 6 out of the 14 loans listed in Appendix C but does not concur
 with the findings on the remaining 8 loans.

 Comments explaining OFA's position on each of the 14 loans and a copy of OFA's memorandum
 of November 2, 1999, are attached for your convenience.

 Please advise if your office desires further discussion on this review.




                                               3

                                                                                                     AppendixF

       c.     OFA concurred with the finding on the following loan on the basis that it was
              improperly approved under PLP:

             7.           FOIA EX 4

       d. OIG provided additional information that enabled OFA to concur with the findings on
          the following 3 loans:

             8.           FOIA EX 4

             II           FOIA EX 4


                  OIG stipulated that the lender did not make SBA aware of unsatisfactory credit
                  information.

            12.           FOIA EX 4


                  OIG stipulated that the lender did not make SBA aware of unsatisfactory cred.it
                  information.

  e.    OFA and OIG are unable to reach concurrence on the fOllowing loan:
        2.                FOIA EX 4

              The pUrpose of the loan was to purchase an existing business. The seller used sale
              proceeds to pay a debt of the business to the participating lender that financed the
              purchase by a PLP loan. The OIG considers this an ineligible reduction of the PLP
              lender's exposure under 13 CFR § 120. 140(j) (3). OFA does not concur with this.

             OFA believes this rule is applicable only to a reduction of the lender's exposure with a
             borrower obtaining an SBA guaranteed loan, not the debts of a third party. 13 CFR
             § 120.452(a)(2) supports this position. It says, in part, that a lender may not make a PLP
             business loan that reduces its existing credit exposure for any Borrower. The lender did
             not violate this rule.

More information is available from the
and December 8, 1999, issued by OFA to OIG.
                                              memor~nda and attachments dated November
                                                                                .
                                                                                       2, 1999,




                                                  ~

                                                    2




                                                    4

r
I




                                  U.S. SMALL BUSINESS ADMINISTRATION
                                         WASHINGTON, D.C. 20416
                                                                                                 AppendixF




       DATE:           December 17, 1999
             TO:       John Dye
                       Acting Assistant Inspector General
                         for Auditing       r\ 1 \\     A                n(')
      FROM:           Jane Palsgrove Butler ~ <s ~ [e.
                      Associate Administrator                                    I

                        for Financial Assistance

    SUBJECT:          Response to OIG on Draft of Summary Report on 7(a) Loan Processing


     This office has had extensive discussions with OIG concerning the subject draft report and has
     reached agreement on the findings for all but one of the loans originally listed in Appendix C of
     the Draft Summary Report on 7(a) Loan Processing.

     This appendix originally included 14 loans. OIG agreed to drop two loans from this list, which
     should significantly improve the statistical data, which substantially lowers the projected
     exposure of SBA to potential loss. The two loans reduced the total gross loan amount of
     $4,765,000 by $2, 030,000, or 43.1 %.

     a. The following two loans are the ones OIG agreed to drop:

         10.            FOIA EX 4

               OIG concurred with OF A that analysis and determination of repayment ability is
               subjective and should not be viewed as a violation of policy and procedures.

         13.            FOIA EX 4

               OIG concurred that use of loan proceeds' to pay off interim construction loans to
               participating PLP lenders per policy in SOP 50-lOis not ineligible and does not create an
               appearance of a conflict of interest.

     b. OIG also agreed to amend language in the report to indicate that some loans either
        should not have been approved or should not have been disbursed. This enabled OFA
        to concur with OIG's finding on the following three loans on which an adverse change
        occurred after approval:

        4.
                        FOIA EX 4
        6.

        9.




                                                   5

                          U.S. SMALL BUSINESS ADMINISTRATION
                                  WASHINGTON, DC 204 I 6               Appendix F



                                MEMORANDUM

Date:           September 23, 1999

To:             John Dye, Acting Inspector Ge~eral for Auditing

From:           Robert Baskin, Associate Administrator for Field Operations

Subject:        Summary Audit of7 (a) Loan Processing

Thank you for the opportunity of commenting on your draft summary report
on the 7(a) Loan Processing. The Office ofField Operations supports the
Office of Inspector General and relies upon your office in the investigative
process, especially in instances where our field offices have indicated a
matter of potential fraud or other misuse of the loan programs.

We are in agreement with you that more lender oversight of our lenders is
needed and are working closely with the Office of Financial Assistance on
the new procedure for lender oversight. It is anticipated that our field offices
will be receiving training on the new procedures within the next couple of
months by a series of conference calls. OFA will be coordinating these
conference calls with our office to ensure that all appropriate field staff are
trained in the new lender oversight procedures.

It may be beneficial in future reports to identify issues of dispute between
OIG and the field offices as to OIG's findings. This way, some of these
matters may be resolved up front instead of being left as unresolved issues.
For example, in your Kansas City Report 9-16 dated August 4, 1999, on
page 6 Reasons for Lender Deficiencies the lender's loan officers disagreed
that an error was made as to 7 of the OIG stated deficiencies. There was no
elaboration or notation as to what was in dispute, and whether OIG took the
ienders' or the field's responses into consideration as to those items being
disputed.

(j.   j,   ,I
,.Alla« Ut~ t~
                ~1   -'
yobert B. Bast~\




                                        6

Appendix G

                                                   Office of Inspector General
                                                   Audit Report Distribution

          Recipient                                                                                        Number of Copies


Administrator......................................................................................................... 1


Deputy Administrator ............................................................................................ 1


Associate Deputy Administrator for Capital Access................................................ 1


Associate Administrator for Field Operations ......................................................... 1


Associate Administrator for Financial Assistance.................................................... 1


Financial Administrative Staff................................................................................. 1

 Attention: Jeff Brown


General Counsel..................................................................................................... 2


General Accounting Office..................................................................................... 1





                                                                       7

